                                                  NATIONAL SCIENCE FOUNDATION
                                                  OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                           CLOSEOUT MEMORANDUM

 Case Number: A11110080                                                                        Page 1 of 1


         An anonymous complainant alleged a previous Closeout Memorandum (A06110051)
         contained erroneous information in that it stated NSF lacked jurisdiction. That
         case involved allegations of plagiarism by students in their theses at the
         University.l    The complainant provided evidence that an NSF grant2 was
         acknowledged in two students' (S13 and S2 4) theses, so it appeared NSF should have
         had jurisdiction.
         We learned both S1 and S2 were students of the grant's co-PI, and the co-PI and the
         PI were on the thesis committee of both students. The grant included support for
         graduate students, and the title of the grant aligned with the title of the two theses.
         We contacted the University and asked if it had been aware of these students'
         theses, their connection to NSF, and if it reviewed those theses as part of its inquiry
         into the plagiarism allegations. The University noted it had previously told OIG
         there was an NSF connection to one student, but that student was deceased, and
         the University had not provided his name to OIG (it was S2). It had not previously
         realized the connection of S1 to the grant. The University confirmed it had
         previously reviewed the proposals of S1 and S2; that review found examples of
         improper citations, but concluded they were not sufficiently serious to warrant a
         finding of plagiarism.
         Because of the connection of the two students to the NSF grant, our previous case
         should not have been closed because it lacked jurisdiction, it should have been
         closed because the two theses did not contain plagiarism that warranted a finding of
         research misconduct. We also note the theses were written over two decades ago,
         and agree with the University's difficulties described in the original Closeout about
         pursuing these allegations. Accordingly, this case is closed with no further action
         taken.




              1[redacted].
              2[redacted] was awarded to the University, with [redacted] as the PI and [redacted] as the co-PI.
         The budget lists support for three graduate students, whose salaries and benefits comprise the
         largest (budgeted) expenditure of the grant.
             3 [redacted].
             4 [redacted].




NSF OIG Form 2 (11102)
